BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 40 copies and
1 unbound copy of the foregoing Brief of Amici Curiae
Former Foster Children and Foster/Adoptive Parents
and the Catholic Association Foundation in Support of
Petitioners in 19-123, Sharonell Fulton, et al. v. City of
Philadelphia, Pennsylvania, et al., were sent via Two
Day Service to the U.S. Supreme Court, and 3 copies
were sent via Two Day Service and e-mail to the
following parties listed below, this 3rd day of June,
2020:
Mark Leonard Rienzi
The Becket Fund for Religious Liberty
1200 New Hampshire Ave., NW
Suite 700
Washington, DC 20036
(202) 507-0834
rienzi@law.edu
mrienzi@becketlaw.org
Counsel for Petitioners
Leslie Cooper
American Civil Liberties Union
125 Broad Street
New York, NY 10004
(212) 519-7815
lcooper@aclu.org
Counsel for Intervenor Support Center for Child
Advocates and Philadelphia Family Pride

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Neal Kumar Katyal
Hogan Lovells US LLP
555 Thirteenth St., N.W.
Washington, DC 20004
(202) 637-5528
neal.katyal@hoganlovells.com
Counsel for Respondents City of Philadelphia,
Department of Human Services for the City of
Philadelphia, Philadelphia Commission on Human
Relations
Andrea Picciotti-Bayer
Counsel of Record
The Catholic Association Foundation
3220 N Street NW, Suite 126
Washington, DC 20007
(571) 201-6564
amariepicciotti@gmail.com
Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on June 3, 2020.

DonnaJ. Wo
Becker Gallagher Legal P ublishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

~£_

dr
1v fJ .
Notary Public

3, a-aao

f2>cut5

[seal]

/'/,
~?·'
·. /
' $

